<77 ^
cv...
'■" W Ui
L

SCOTUS Case No.

Supreme Court, U.S7
FILED

MAf? 3 \ 2321

IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK. Petitioner
YPRESIDENTJOSEPH R. BIDEN. JR.. UNITED STATES
CONGRESS et al. parties acting in both professional and
personal capacities.
Respondents.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

MOTION FOR LEAVE TO FILE PETITION;
PETITION FOR A WRIT OF CERTIORARI BEFORE
JUDGMENT TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA AND REQUEST TO EXPEDITE SAME

Mary Jo Weidrick, Petitioner
1300 Rhodes Avenue
Sarasota, FL 34239
Ph.: 941-316-0273
_____

received
APR - 5 2021

Zi

IN THE
SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRJCK. Petitioner
v.
PRESIDENT JOSEPH R. BIDEN. JR.: U. S.
Congress 7 et al. Respondents.

MOTION FOR LEAVE TO FILE PETITION
Mary Jo Weidrick hereby respectfully moves the Court for
Leave to file the Petition submitted herewith.
In support of her Motion, the Petitioner asserts that her claims
as set forth are true, her claims are serious and dignified, and there is no
alternative forum in which adequate and complete relief may be obtained.
For the reasons more fully set forth in the pleading, Petitioner respectfully
requests her Motion for Leave to File Petition and Motion be granted.
c

Respectfully. submitted
_ <jicLlc
D
drick, Petitioner
1300 Rhodes Avenue
Sarasota, FL 34239
941-316-0273

QUESTIONS PRESENTED

i.

Whether the facts alleged in Petitioner’s complaint are true and nonfrivolous despite the bizarre and unusual nature of the case rather than
“frivolous” as stated by the lower court, which erroneously dismissed this
case.

u.

Petitioner brought this action and request its expedition to compel
Respondents and this Court to allow Petitioner to immediately and safely
confer with her attorney of 3-4 years, Mark J. Geragos, and to
immediately speak to and be deposed by the Manhattan District Attorney
investigating this case, Cyrus R. Vance, Jr., for purposes of testifying
before the Grand Jury immediately and safely, to stop this terrorism of
Petitioner (ensuring our laws and constitution are enforced; restoring our
republic).

1.

PARTIES TO THE PROCEEDINGS
A. Petitioner:

Mary Jo Weidrick is a pro-se applicant and resident of

the State of Florida since 2010.
B. Respondents acting both professionally and individually: President
Joseph R. Biden, Jr. was a resident of the State of Delaware until becoming
President in January 2021; wherein he also became a resident of
Washington, D.C. and conducts his primary business there.
Members of Congress et al have primary offices in Washington D.C.
and conduct their primary business from there and presumably maintain
residences in their respective districts or states as well.

u.

TABLE OF CONTENTS

Page

QUESTIONS PRESENTED

,i

PARTIES TO THE PROCEEDINGS

,11

INDEX OF APPENDICES

,iv

TABLE OF AUTHORITIES

,iv

OPINIONS BELOW.

1

JURISDICTION and VENUE

1

RELEVANT CONSTITUTIONAL and STATUTE
PROVISIONS..............................................................

1

STATEMENT OF CASE

4

REASONS FOR GRANTING THE PETITION
And EXPEDITING SAME................................

13

CONCLUSION

17

m.

INDEX OF APPENDICES

Appendix A.

Judge’s Memorandum Opinion and Order, U. S. District
Court for the District of Columbia, filed March 4, 2021.

Appendix B.

U. S. District Court for the District of Columbia Order
Granting Plaintiffs Motion for Leave to Appeal in forma
pauperis; filed on March 19, 2021.

TABLE OF AUTHORITIES
Escobedo v. State of IL, 378 U. S. 478 (1964)

p. 8

Hamdi v. Rumsfeld, 542 U. S. 507 (2004)

p. 9

Rumsfeld v. Padilla, 542 U.S. 426 (2004)

p. 9

Youngstown Sheet & Tube v. Sawyer, 343 U.S. 579 (1952)

p. 10

Unknown case names and citations (ergo cases currently
brought by Manhattan District Attorney Cyrus R. Vance, Jr.;
previously brought by SDNY Chief Attorney Geoffrey Berman,
by Petitioner’s attorney, Mark J. Geragos et al) into SCOTUS;
into other courts presumably including FISA Court
p. 13

IV.

I.

OPINIONS BELOW
None known.

II.

JURISDICTION and VENUE

a.)
The court below had jurisdiction pursuant to 28 U.S.C. Sec.
1331, 1332, United States District Court for the District of Columbia; Civil
Action No. 21-416 (UNA); final judgment was issued by this court on March 4,
2021.
Petitioner mailed a timely notice of appeal to the United States
b.)
Court of Appeals for the District of Columbia on March 10, 2021; it was filed on
March 19, 2021 and assigned case no. 21-5067.
SCOTUS has jurisdiction under 28 U.S.C. 2101(e); 28 U.S.C.
c.)
Sec. 1254; 28 U.S.C. Sec. 1651.
Venue is proper in this district pursuant to 28 U.S.C. Sec. 1391
d.)
as Respondents live in this district either full or part time; many of the
transactions and events giving rise to Petitioner’s claims originate and occurred
in this district for the past 31+ years and continue to do so.

III. RELEVANT CONSTITUTIONAL and STATUTORY PROVISIONS
Art. I, Sec. 2. Speaker Impeachment. The House of Representatives shall chuse
their Speaker and other Officers and shall have the sole power of
impeachment,
P.ll
Art. I, Sec. 3. The Senate shall have the sole Power to try all Impeachments.
When sitting for that Purpose, they shall be on Oath or Affirmation. When the
President of the United States is tried, the Chief Justice shall preside; And no
Person shall be convicted without the Concurrence of two thirds of the Members
present.
Judgment in Cases of Impeachment shall not extend further than to remove
from Office, and disqualification to hold and enjoy any Office of honor, Trust or
Profit under the United States; but the Party convicted shall nevertheless be liable
and subject to Indictment, Trial, Judgment and Punishment, according to law.P.ll
Art. I, Sec. 8. Necessary and Proper Clause. To make all Laws which shall be
necessary and proper for carrying into Execution the foregoing Powers, and all
other Powers vested by this Constitution in the Government of the United States, or
in any Department or Officer thereof.
P. 11

Art. II, Sec. 1. “...[In case of Removal of the President from Office, or of his
Death, Resignation or Inability to discharge the Powers and Duties of the said
Office, the same shall devolve on the Vice President, and the Congress may by Law
provide for the Case of Removal, Death, Resignation or Inability, both of the
President and Vice President, declaring what Officer shall then set as President,
and such Officer shall act accordingly, until the Disability be removed, or a
President shall be elected.]
P. 11
Art. II, Sec. 1. Oath of Office. “...Before he enter on the Execution of his Office,
he shall take the following Oath or Affirmation — “I do solemnly swear (or affirm)
that I will faithfully execute the Office of President of the United States, and will to
the best of my Ability, preserve, protect and defend the Constitution of the United
States.”
Page 11
Art. II, Sec. 3. (President) Take care clause, “...he shall take care that the
Laws be faithfully executed,...”
Page 11
Art. VI. Supreme Law of the Land. “...This Constitution and the Laws of the
United States, which shall be made in Pursuance thereof; and all Treaties made, or
which shall be made, under the Authority of the United States, shall be the
Supreme Law of the Land; and the Judges in every State shall be bound thereby,
any Thing in the Constitution or Laws of any State to the contrary
notwithstanding.”
Page 11
Art. VI. Oath to Support Constitution. “The Senators and Representatives
mentioned, and the Members of the several State Legislatures and all executive and
judicial Officers, both of the United States and of the several States, shall be bound
by Oath or Affirmation, to support this Constitution...”
Page 11

First Amendment

Page 8

Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
Fourth Amendment

.....Page 8

The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and

Qt

particularly describing the place to be searched, and the persons or things to be
seized.
Fifth Amendment

Page 8

No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger, nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
Sixth Amendment,

Page 8

In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.
Ninth Amendment,

Page 8

The enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.

Sec. 802, Patriot Act. (Pub. L. No. 107-52)

Page 11

Expanded “terrorism” to cover “domestic terrorism”. A person engages in domestic
terrorism if they do an act “dangerous to human life” that is a violation of the
criminal laws of a state or the United States if the act appears to be intended to: (i)
intimidate or coerce a civilian population; (ii) influence the policy of a government
by intimidation or coercion or (iii) to affect the conduct of a government by mass
destruction; assassination or kidnapping. The acts must also occur primarily within
the territorial jurisdiction of the United States.
—For additional statute violations, please refer to page 11.
3.

IV.
1.

STATEMENT OF THE CASE

Petitioner filed this action in the U. S. District Court for the District of

Columbia Circuit in February 2021; the court dismissed the case (Civil Action No.
21-416(UNA)) as “frivolous”. (App. “A”)
2.

The U. S. District Court issued an Order granting Petitioner’s Motion for

Leave to File Appeal in forma Pauperis in the United States Court of Appeals for
the District of Columbia filed March 19, 2021, (Case No. 21-5067). (App. “B”)
3.

Respondents, named and unnamed, have engaged in terrorist activity against

Petitioner 24/7 for over 31 years and continue to do so as outlined below,
threatening to arrest Petitioner’s attorney, Mark J. Geragos, and the prosecutor,
Manhattan District Attorney Cyrus R. Vance, Jr., if they speak to Petitioner for
purposes of stopping this terrorism.
4. There are many planks of 31+ years of terrorism including but not limited to:
a.) Respondents named and unnamed have terrorized and tortured
Petitioner 24/7 for over 31 years by violently raping her brain 24/7 with
mind-reading equipment, thus sexually assaulting her as well, slandering
Petitioner, slowly trying to kill her; and simultaneously making a joke of
Petitioner and this terrorism of her;
b.) Use U. S. national TV media and their guests from around the World to
violently rape Petitioner’s brain thus also sexually assault, slander her 24/7
anywhere she is and wherever they are; whether her TV is on or off;
4.

c.) Use local TV media to daily air Respondents’ smear campaigns against
Petitioner in the communities where Petitioner has resided for 31+ years in
order to recruit local citizens to participate in this terrorism. Said smear
campaign also involves photo-shopped images of her in various inappropriate
activities;
d.) Respondents use CIA, FBI, DO J, intel, seemingly all federal
intelligence agencies and other unnamed co-conspirators such as
Facebook, other social media networks, neighbors, strangers possibly
from around the World et al to daily forge pro-terrorism materials
making it appear they originate from Petitioner;
e.) Recruit governors (including FL’s, TN’s and NTs) and other state officials
including state Attorneys General; city council members, mayors, local law
enforcement where Petitioner resides to engage in this terrorism;
f.)

Of those attorneys who may have believed Petitioner’s story, Petitioner

believes Respondents persuade attorneys Petitioner tried to hire over the past
31+ years to participate in this terrorism or engage in complicity by refusing to
help Petitioner thereby denying Petitioner access to the courts thus keeping
this terrorism alive and avoiding prison. (Petitioner found attorney Mark
Geragos 3-4 years ago; she still cannot find another attorney to help her write
these pleadings to be able to confer with him);

D*

g.) Petitioner has filed pro se suit over the past 31+ years, all of which have been
rejected by the lower courts as “frivolous” or “sua sponte”; SCOTUS has rejected
them maybe on technical grounds however seems willing to hear this case if
Petitioner writes it correctly.
h.)

Solely because of Respondents’ actions against Petitioner commencing

10/31/89, Petitioner has not been able to read a book for content or retention; get
an advanced degree, work, date, marry, have children, have friends, play tennis,
volunteer, have money, is forced to five near the poverty fine on disability; have a
conversation with someone who is not a participating terrorist as Respondents
have successfully recruited seemingly all people around her to participate in this
terrorism and/or engage in complicity, etc. Due to the assault on her brain,
Petitioner has difficulty engaging in critical thinking.
5.

It took Petitioner a-very-long-28-years to find an attorney to help her stop

this terrorism-— she found Mark J. Geragos 3-4 years ago via five TV and wrote to
him. However solely due to Respondents’ deliberate unlawful and unconstitutional
acts outlined herein (primarily “d” above and “6” and “7” below), Mr. Geragos and
Petitioner have never conferred. Petitioner drives to the library to communicate
with him via his website most weekdays for 3-4 years (as she has no internet at
home due to Respondents apparently putting “pro-terrorism” items on it too).
Petitioner believes Mr. Geragos (and formerly Mr. Geoffrey Berman of SDNY)
appeared before the Supreme Court of the United States (hereinafter “SCOTUS”) or
a Grand Jury where he prevails in being allowed to confer with Petitioner.
Petitioner believes these legal suits were taken over and now performed by

G\

Manhattan District Attorney Cyrus R. Vance, Jr. once he learned of this terrorism
in the past year and began investigating.
6. The Respondents’ vicious, intentional criminal and unconstitutional
cycle continues:

As stated, for quite some time Mr. Vance (or Mr. Geragos, Mr.

Berman) prevails in SCOTUS or in front of the Grand Jury (daily/weekly?)
garnering a “win” to be able to speak to Petitioner. In response, named and
unnamed Respondents (daily/weekly?) forge more pro-terrorism material. Almost
simultaneously, and deliberately with malicious intent, Respondents falsely declare
this a “national security” issue or an “investigation” of Petitioner, then issue illegal
and unconstitutional Executive Orders (or similar instruments) prohibiting Mr.
Geragos, Mr. Vance from speaking to Petitioner, presumably threatening to arrest
them if they do. So back to court or the Grand Jury Mr. Vance (Mr. Geragos) go for
another win to be able to speak to Petitioner. Again Respondents forge more pro­
terrorism material and around they go.
7.

There is no “national security” issue or legitimate “investigation” of

Petitioner. Respondents deliberately make false documents and allegations solely
with the intent of preventing Petitioner from speaking with her attorney and the
prosecutors to avoid prosecution, imprisonment, being substantially sued. This is
not a “national security” case of Petitioner; it is Respondents’ ongoing criminal
activity and a criminal case against Respondents which prosecutor Cyrus R. Vance,
Jr. (and formerly Geoffrey Berman of the SDNY) has been unable to prosecute
because of Respondents’ continued obstruction of justice. Mr. Vance has
*7

investigated this case; opened a criminal case; once Petitioner is safely and
immediately allowed to speak to her attorney, Mr. Vance, then the Grand Jury,
indictments can be forthcoming.
POINT “i”
8.

In addition to being criminal in intent, Respondents’ actions as outlined in

“Statement of Case” and elsewhere violates Petitioner’s First, Fourth, Fifth, Sixth,
Ninth Amendment rights.
POINT “ii”
9.

Denying Petitioner the right to confer with her attorney, Mark J. Geragos,

violates her Sixth Amendment right to counsel.

In Escobedo v. State ofIL. 378

U.S. 478 (1964), SCOTUS established the right to counsel begins when a
legitimate investigation is no longer a general inquiry but focuses on one particular
“suspect”. Hence if Respondents were legitimately “investigating” Petitioner, she
should have had access to Mr. Geragos when he became her attorney years ago.
Likewise, she should have access to the Manhattan D.A. to prove they are
committing these violent crimes, stop and indict them, etc.
POINT “iii”
10.

Denying Petitioner the right to speak with her attorney, speak with the

prosecutors also denies her, and them, their First Amendment right of free speech
and assembly.
8.

POINT “iv”
11.

If this Court were to give deference to named and unnamed Respondents’

falsified pro-terrorism materials, Petitioner would still have rights to confer with
her attorney. In Hamdi v. Rumsfeld. 542 U.S.507 (2004), this Court concluded
Mr. Hamdi, declared an “enemy combatant” by the U.S. government, maintained
his Fifth Amendment due process rights to contest his detention, with access to an
attorney, before a neutral decision-maker.
This Court further rejected the government’s argument that separation-ofpowers prevents the judiciary from hearing Mr. Hamdi’s challenge.
12.

Petitioner is unsure how Respondents are falsely “classifying” her, unsure of

any “evidence” since it is falsified, thus Petitioner is unsure of what cases to cite if
there are any. Petitioner has not had access to an attorney; and hasn’t recently
Westlaw, but her google searches showed this “national security” case on U. S. soil:
a.)

In Rumsfeld v. Padilla. 542 U.S. 426 (2004), U. S. citizen Jose

Padilla was arrested in the U. S., eventually declared an “enemy combatant”
and was denied access to any attorney. District Court Judge Mukasey rejected
the government’s denial of Mr. Padilla’s access to any attorney because of
government fears counsel would interfere with Padilla’s interrogation and that
Padilla might use contacts with counsel to communicate with other terrorists.
The appeals court reversed the district court’s “enemy combatant” ruling
finding the Authorization for Use of Military Force (AUMF) did not meet the

requirement of the Non-Detention Act and that the President could not,
therefore, declare American citizens captured outside a combat zone as enemy
combatants hence ordered Padilla released without resolving the issue of
access to his attorney; thus this Court did not see the case.
POINT V
13.

President Biden and all other POTUS’ have knowingly illegally and

unconstitutionally issued Executive Orders (or similar instruments apparently)
declaring Petitioner a matter of “national security” or claims she is being
legitimately “investigated” (for pro-terrorism material Respondents themselves are
illegally and unconstitutionally forging or are responsible for forging); Respondents
then illegally and unconstitutionally threaten to arrest Petitioner’s attorney and the
prosecutor, Mr. Geragos and Mr. Vance, respectively, if they speak to Petitioner for
purposes of stopping this terrorism of Petitioner. In Younsstown Sheet Metal v.
Sawyer. 343 U.S. 579 (1952), SCOTUS overturned an Executive Order issued by
President Truman opining that the President had no power to act except in cases
expressly or implicitly implied by the Constitution or by Congressional legislation.
Illegal and unconstitutional acts as intentionally performed by Respondents
are not “covered” under the United States Constitution and cannot be added to the
Constitution or made legal by statute.

10.

POINT ‘Vi.”
14.
Respondents, via the few planks of this terrorism as described
herein violate at minimum, statutes:
1.) Conspiracy to commit offense or to defraud United States under 18 U.S.C.
Sec. 371;
2.) Conspiracy to commit a crime of violence under 18 U.S.C. Sec. 373(a);
3.) Terrorism under Sec. 802 of the Patriot Act;
4.)
Making false declarations before grand jury or court under 18 U.S.C.,
Sec. 1623;
Tampering with a witness, victim or an informant under 18 U.S.C., Sec.
1512;

5.)

Threatening to kidnap Petitioner, her attorney, the SDNY, prosecutors
at the Manhattan District Attorney’s office should they confer with Petitioner
under possibly federal kidnapping statute 18 U.S.C. 1201 or state kidnapping
statutes;

6.)

Obstruction of justice — as an act that “corruptly or by threats or
force, or by any threatening letter or communication, influences, obstructs or
impedes or endeavors to influence, obstruct or impede the due administration of
justice under 18 U.S.C. Sec. 1503.
7.)

8.) Obstruction of court orders under 18 U.S.C. 1509;
9.) Major Fraud Against the U. S. under 18 U.S.C., Sec. 1031;
10.)

Conspiracy to interfere with civil rights and Deprivation of civil rights

under 42 U.S.C., Sec. 1985 and 1983;
11.) Abuse of power - inherent in U.S. Constitution and illegal by various
statutes;
12.) Sedition, treason possibly.
15. Because President Biden deliberately with criminal intent engages
in the planks of terrorism described herein violates, at minimum, the

11,

duties of the President of the United States under the Constitution of the
United States:
1.) Under Art. II, Sec. 1, the President takes the Oath of Office that
he will “...faithfully execute the Office of President of the United States, and
will to the best of my Ability, preserve, protect and defend the Constitution of
the United States.”
2.) Art. II, Sec. 3 states the President of the United States “...shall
take care that the Laws be faithfully executed...”
3.)

Art VI, Oath to Support Constitution.....’’...shall be bound by

Oath or Affirmation, to support this Constitution...”
4.)

Art. VI, the Constitution and the Laws of the United States

which shall be made in Pursuance thereof...shall be the Supreme Law of the
Land...”
16. Each member of Congress deliberately with criminal intent engage
in the planks of this terrorism described herein which violates at
minimum the duties of each member of Congress under the Constitution
of the United States:
1.)

Under Art. VI, each Congressperson takes an Oath “...shall be

bound by Oath or Affirmation, to support this Constitution...”
2.) Under Art. VI, the Constitution and the Laws of the United
States which shall be made in Pursuance thereof....shall be the Supreme
Law of the Land...”
3.) Failure to act under Art. I, Sec. 8 and failure to impeach under
Art. I, Secs. 2 and 3; Art. II, Sec. 1.

12.

V.

REASONS FOR GRANTING THE PETITION AND EXPEDITING SAME

17.

By rejecting Petitioner’s factual assertions, by denying discovery, deposition,

etc., the district court erroneously drew inferences. Petitioner realizes her case is
bizarre thus additionally furnished names, specifically Mark J. Geragos and
Manhattan D.A. Cyrus R. Vance, Jr., so Petitioner’s allegations could be verified.
The court evaluated Petitioner’s credibility and improperly resolved factual issues.
Therefore, the court erred by dismissing the complaint.
18.

The courts have erroneously declared this case “frivolous” wherein new

advances in technology over the ages or the bizarre and unusual application of them
would also sound “frivolous” to the ordinary American or the courts. As examples, if
Petitioner were trying to explain to an unknowledge able person or court the act of
communicating via the internet or men landing on the moon, a “reasonable” person
or court may consider them outrageous and dismiss them as “frivolous”. But
obviously they’re true.
This is one of those cases.
19.

Petitioner believes Mr. Vance (Mr. Berman, Mr. Geragos et al) have brought

this or related cases to this Court thus this Court has heard testimony and evidence
of this terrorism and are aware this case is serious, not frivolous; (case names and
citations unknown)(2017-2021).

Petitioner also believes this Court has

witnessed Petitioner being raped by the mind-reading equipment on several
occasions, the last being the Presidential inauguration of terrorist Joseph Biden, Jr.
13.

20.

Petitioner believes Mr. Vance has interviewed or interrogated many people,

perhaps even in the U. S. government intelligence community, who have testified
the pro-terrorism material in question is forged, and may have confessed to the
totality of this terrorism of Petitioner.
21.

Petitioner believes some social media executives such as Mark Zuckerburg

have confessed to forging such pro-terrorism material.
22.

The Doctrine of Common Sense.

Common sense as defined by Black’s

Law Dictionary states: “...sound practical judgment; that degree of intelligence and
reason, as exercised upon the relations of persons and things and the ordinary
affairs of life, which is possessed by the generality of mankind, and which would
suffice to direct the conduct and actions of the individual in a manner to agree with
the behavior of ordinary persons.”
a.) Respondents wanted Petitioner to know they were violently raping
her brain 24/7 commencing 10/31/89 and did so via many means including but not
limited to using loud local citizens stalking her everywhere regurgitating her
thoughts “at” her in real-or-almost-real-time; using local police sirens to reinforce
certain of Petitioner’s thoughts, make threats, etc. in conjunction with the mind­
reading equipment, etc.

The “doctrine of common sense” dictates that since

Petitioner has known since 10/31/89 that her brain is being raped 24/7 with mind­
reading equipment, she would have stopped any involvement in pro-terrorism
activity so as not to give away “methods and sources”;
14.

b.) Based on the unbearable violence named and unnamed
Respondents have inflicted on Petitioner 24/7 for over 31 years, the “doctrine of
common sense” further dictates Petitioner would have stopped any pro-terrorism
activity immediately upon Respondents starting this terrorism on 10/31/89.
Additional Reasons to Grant Petition and Expedite Same:
23.

Two out of three branches of the United States government are active

participants in this terrorism, both professionally and individually, leaving only the
Judiciary to use its integrity and authority to help stop this terrorism.
24.

The Legislative/Constitutional remedy:

Because apparently all or most

members of Congress are participants, no POTUS or Congressional terrorists have
been impeached which is the primary constitutional remedy (nor has any
Congressperson-or anyone-else spoken to Petitioner).
25.

The Legal remedy:

Because all POTUS are participants, apparently all

federal law enforcement from the USAG down to local police; many state
government officials such as the Governors of FL, TN, NY et al; some state
Attorneys General such as FL’s, TN’s; all local government and law enforcement
where Petitioner resides are involved in this terrorism, thus named and unnamed
Respondents have not been indicted.
26.

The American citizen: public-at-large remedy:

Seemingly all national TV

and print media; and local media where Petitioner resides are unnamed

i*.

participants in this terrorism; thus this terrorism is not made public for the citizens
of the United States to become informed, enraged and stop the participants.
27.

The Judicial Remedy:

Because the lower courts where Petitioner has

periodically filed suits to stop this terrorism over the past 31+ years have dismissed
her lawsuits as “frivolous” or “sua sponte”, the lower courts are not a potential
solution for this terrorism, thus keeping this terrorism alive.
This court is the Court of last resort and is the only remedy for this
case.
28.

There is reasonable probability that more than four Justices will conclude

upon review that the actions of Respondents are erroneous, that they are deliberate,
willful, violent with intent to seriously harm Petitioner, and are unconstitutional
and illegal.
29.

Further permanent harm to our country and to Petitioner will continue

should this case not be heard by this Court and on an expedited basis.
30.

Respondents are using our country’s treasures and national security assets

for their own personal vendetta against Petitioner for 31+ years as well as using
and abusing their positions of power in the United States government to administer
this terrorism against Petitioner. —- This terrorism started 31+ years ago when
Respondents, some of who apparently had been socially pursuing Petitioner,
decided they didn’t like her and started this terrorism to “punish” her for not being

It*

who they wanted her to be. Petitioner never met or spoke to them...or really any
men socially during that time. In short summation:
a.)

Disappointed in Petitioner for not being who they wanted her to he,

Respondents decided to conspire to destroy Petitioner’s life, and Petitioner
herself, by using their positions of power in the United States government to
forge (or cause to be forged) any and all pro-terrorism material; frame
Petitioner by making it appear it is hers; start a multi-faceted 24/7 micromanaged terrorism campaign of her on 10/31/89; pretend they actually dislike
her because of her “pro-terrorism activity” which they themselves started
fabricating on 10/31/89 to “punish” her for disappointing them.
b.)

Stunningly, rather than being morally outraged and fearful for our

democracy thereby immediately stopping all planks of this terrorism, other
members of Congress, all U. S. national TV and print media et al voluntarily
conspired to participate in this terrorism, being promised by the Respondents— the most powerful people in the World—they will never go to prison or be
substantially sued for their participation in this terrorism.
VI.

CONCLUSION

31.

Petitioner nravs this Court:

a.)

Expedite this case due to its importance to our country, our society and to

Petitioner;

17.

b.)

For the reasons stated herein, Petitioner respectfully requests this Court

reverse the district court’s dismissal of her suit and review the case for further
proceeding;
c.)

Find Respondents’ actions unconstitutional and illegal thus allow Petitioner

to safely and immediately confer with her attorney, Mark J. Geragos, and the
prosecutor, Cyrus R. Vance, Jr., and testify before the Grand Jury, safely and
immediately;
d.)

Respondents do not have a legitimate “national security” case; this is

Respondents’ nefarious terrorism activity euphemized by them as “national
security” to punish Petitioner for their personal dislike of her. There is no pro­
terrorism material in existence, ever, related to Petitioner hence any action taken
against Petitioner, her attorney, the Manhattan District Attorney et al by named
and unnamed Respondents, the United States government et al related to this
matter is unconstitutional; criminal; is solely intended to obstruct justice to avoid
prosecution and should he dismissed or otherwise dealt with by this Court;
e.) Grant any other relief this Court deems proper and appropriate.
o

Respectfully submitted,

(L&cvJLu) H
3' 31- 3<s>ai

eidrick, Petitioner

March 31, 2021

1300 Rhodes Avenue
Sarasota, FL 34239

%,

CHARLES H. BARKER
MY COMMISSION # GG143532
EXPIRES: January 15.2022
Bonded Thru Notary Public Underwriters

941-316-0273

r<70 v\& ffa CeS>ty
1*

